IN THE SUPREME COURT OF THE UNITED STATES

WASHINGTON, MARVIN, ET AL.
Petitioner
vs.

No:

20-0148

WILLIAM P. BARR, ATT'Y GEN., ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
September 14, 2020
cc:

See Attached List

DAVID C. HOLLAND
201 EAST 28TH STREET
SUITE 2R
NEW YORK, NY 10016
MICHAEL STEVEN HILLER
HILLER, PC
641 LEXINGTON AVENUE
29TH FL
NEW YORK, NY 10022
GARY WEINSTEIN
330 WASHINGTON STREET
PMB 368
HOBOKEN, NJ 07030
JOSEPH COLLINS
FOX ROTHSCHILD LLP
321 NORTH CLARK STREET,
SUITE 1600
CHICAGO, IL 60654
ANTHONY J. MELLACI
ANSELL GRIMM & AARON, PC
1500 LAWRENCE AVENUE
OCEAN, NJ 07712
ANDREW KIM
GOODWIN PROCTER LLP
1900 N STREET, NW
WASHINGTON, DC 20036

